05/24/07       THU 12:03 FAX 865 241 3897               OIG
                                                        0-4                                  H
                                                                                             HQ                     1001


     DOE F 1325.8
     (08-93)
     United States Government                                                                  Department of Energy

      memorandum
               DATE:
                 DAT     May 24, 2007                               Audit Report Number: OAS-L-07-12
           REPLY TO
           ATTN OF:    IG-32 (A07DN010)

           SUBJECT:    Audit of Continuity of Operations at the Western Area Power Administration
                 TO:   Administrator, Western Area Power Administration

                       INTRODUCTION AND OBJECTIVE

                       The Western Area Power Administration (Western) markets and delivers cost-based
                       wholesale hydroelectric power to its customers. Western's wholesale customers in
                       its four regions - Rocky Mountain, Desert Southwest, Sierra Nevada, and Upper
                       Great Plains - provide service to millions of consumers within a 15-state marketing
                       region in the central and western United States.

                       With electricity being such a vital commodity, it is of utmost importance to ensure
                       that Western is prepared to continue operations during an emergency or situation
                                                                                                             that
                       may disrupt normal operations. Western is required to follow the Federal
                       Preparedness Circular 65 (FPC 65) - guidance issued by the Federal Emergency
                       Management Agency - for developing contingency plans and programs for
                       continuity of operations. This guidance includes (1) identifying essential
                                                                                                     functions;
                       (2) preparing alternate operating facilities; and (3) establishing a devolution plan of
                       continuing operations in an event where the Federal entity is incapable of performing
                       essential functions from either its primary or alternate facility.

                       One of Western's essential functions is system operations, which provides control
                       over the generation and delivery of electrical energy. Therefore, the objective
                       audit was to determine whether Western performed key steps to ensure continuity of the
                                                                                                           of
                       operations for its system operations' essential functions..

                       CONCLUSIONS AND OBSERVATIONS

                       Although Western had taken a number of key steps to ensure continuity of operations
                       for its system operations' essential functions, it could improve its continuity
                                                                                                       of
                       operations strategy in its four regions. Specifically:

                          * Two regions need to improve their system operations' alternate operating
                            facility;
                          * All four regions need to improve their system operations' devolution
                                                                                                  plan for
                            continuing operations if both primary and alternate facilities become
                            inoperable.
05/24/07   THU 12:03 FAX 865 241 3897                OIG                             * -,HQ                      Z2002




                  Alternate Operating Facilities

                   The Upper Great Plains Region's alternate operating facility is not independent of the
                   primary operating facility. Specifically, the information systems used to monitor and
                  .control the electrical power system at the alternate operating facility rely on the
                   computer servers at the primary facility. Therefore, if the primary operating facility
                   is destroyed, system operations would not be able to continue operating at the
                   alternate facility. This region has a plan to construct an alternate operating
                   facility that is independent of the primary facility. However, the region may not have
                   fully evaluated the alternatives for establishing such a facility. Specifically,
                   excluding labor cost, the region plans to spend approximately $3.4 million
                   to establish a new building and set up its alternate operating facility, whereas the
                   other regions used existing facilities and spent $70,000 to $1 million. The Upper
                   Great Plains Region informally considered using existing facilities; however, these
                   options were not included in a formal feasibility study. Further, the new alternate
                   operating facility will only be 15 miles from the primary operating facility, and an
                   all-hazard risk assessment was not performed to determine if the primary and
                   alternate operating facility would be susceptible to the same hazards.

                  Similarly, the Sierra Nevada Region's alternate operating facility is located only 8
                  miles from the primary facility, but no all-hazard risk assessment was performed
                  before the facility became operational. A review by a Western cyber security team
                  indicated that both facilities are in the same flood plain and that a flood could
                  dramatically affect this region's ability to function. The region is aware that the
                  location may be subject to the same hazards and is planning to perform a study in
                  Fiscal Year 2008 to determine if its alternate facility is in the best location, and if
                                                                                                          not,
                  where the best location would be.

                  Devolution Plan

                  Further, all four regions have a devolution strategy to operate the system manually
                                                                                                       if
                  both the primary and alternate facility become inoperable; however, the manual
                  strategy in place at the four regions has not been fully developed. For example, the
                  devolution strategy for the Sierra Nevada Region states that essential personnel
                  should report to pre-determined official duty locations and monitor critical
                  substations. However, its Continuity of Operations Plan does not specify these
                  locations. Moreover, the Rocky Mountain Region intends to manually operate the
                  system if both its primary and alternate facilities are rendered inoperable; however, it
                  does not have detailed documented procedures for doing this.

                  Federal Preparedness Circular 65

                  These deficiencies generally occurred because Western concentrated primarily on
                  meeting the North American Electric Reliability Corporation requirements;
                  therefore, it was less familiar with the FPC 65. For instance, Western's regions did
                  not fully develop devolution strategies because three of the regions were not aware
                  of a 2004 update to the 1999 version of FPC 65, which added devolution planning as
                  a requirement.

                                                     2
05/24/07   THU 12:03 FAX 865 241 3897              OIG                            *-', HQ                  [003




                  SUGGESTED ACTIONS

                  In.order to improve its ability to continue systems operations' essential functions in
                  an emergency situation, we suggest that Western ensure that:

                  1. The Upper Great Plains Region formally evaluate the alternative of using
                     existing infrastructure for establishing a new alternate operating facility, which
                     includes performing an all-hazard risk assessment and working with other
                     regions to share ideas on developing a cost-effective alternate operating facility.

                  2. The Sierra Nevada Region include an all-hazard risk assessment in its study of
                     existing and possible future locations of its alternate operating facility.

                  3. All of the regions prepare a formal devolution plan in accordance with FPC 65 to
                     ensure continuity of operations.
                  SCOPE AND METHODOLOGY

                  The audit was performed between November 2006 and April 2007 at the Western
                  Area Power Administration's four regions. The scope of the audit focused primarily
                  on current continuity of operations strategies for Western's system operations.

                  To accomplish the audit objective, we obtained and reviewed guidance relevant to
                  continuity of operations; reviewed Western's continuity of operations plans;
                  performed site visits at two of Western's regions; and held discussions with key
                  officials responsible for continuity of operations planning.

                  The audit was performed in accordance with generally accepted Government
                  auditing standards for performance audits and included tests of internal controls and
                  compliance with laws and regulations to the extent necessary to satisfy the audit
                  objective. Accordingly, we assessed the Department's controls over continuity of
                  operations for system operations. Because our review was limited, it would not
                  necessarily have disclosed all internal control deficiencies that may have existed at
                  the time of our audit. Also, we considered the establishment of performance
                  measures in accordance with the Government Performanceand Results Act of 1993
                  as they related to the audit objective. We found that the Department had not
                  established performance measures. Additionally, we did not rely on computer-
                  processed data during the audit; therefore, we did not conduct reliability assessments
                  on the data.




                                                   3
05/24/07   THU 12:04 FAX 865 241 3897              OIG                          44 HQ                    004




                   We discussed the audit results and suggested actions with Western officials for the
                   various sites audited during the week of April 22, 2007. Because no formal
                   recommendations are being made in this report, a formal response is not required.
                   We appreciate the cooperation of your staff during our review.




                                                         Fredrick G. Pieper, Director
                                                         Energy, Science and Environmental
                                                           Audits Division
                                                         Office of Inspector General

                  cc: Deputy Secretary
                      Chief of Staff
                      Team Leader, Audit Liaison Team, CF-1.2
                      Audit Liaison, Western Area Power Administration




                                                  4
